r
i

i

W

X

\

N

20=5331

r'S

§tft-

it

%V
\

l

■>

\

IN THE SUPREME COURT OF THE UNITED STATES
sUpre

/

l

°leCowTT?
filed

AUGMichael Alan Bruzzone, Petitioner

S 2020

■PEf/Cg

And
Intel Corporation and ARM Inc., and pursuant 28 U.S.C. § 1391(c)(3) the parent
Japanese headquartered and United Kingdom domicile Softbank ARM Holdings
Respondents

V
l

ON PETITION FOR WRIT OF CERTIORARI to the
UNITED STATES COURT OF APPEALS for the NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

i

I;

s-

Michael Alan Bruzzone
Civic Servant of the Federal Trade Commission
Advocate for “lawful class” at 42 U.S.C. § 1981(a)(b)
U.S. Attorney designate; 31 U.S.C. § 3730(b)(1) at (c)(3)
(FCA) Relator Original Source
Acting individually in pro se
3766 Via Verdi
Richmond, California 94803
(415)250-4652

RECEIVED
AUG 17 2020
©FFICE or THE OLFRksupreme court iVy

QUESTIONS PRESENTED
I.

In a 15 U.S.C. § 1 controversy claiming industry, law, attorney, group
boycott, can District and Appellant Courts, one after the next, deny a
citizen retained by Congress to investigate at 15 U.S.C. §§ 5, 15 and
recover theft U.S.C. §§ 3729, 3730(b)(l)(c)(3) his U.S. Constitution 14th
guarantees of administrative and procedural due process, confrontation,
hearing and searching examination, privileges and equal protection to
protect himself from the opposition’s associates network retaliation?

II.

In same civil controversy can District and Appellant Courts deny 14

th

amendment guarantee to quash speech? Thereby conceal defendant’s
reliance on California anti-SLAPP too libel a federal agent, reversing

I
T-

who is harming whom, to cover up defendant’s concealing enterprise

1

organized crime infiltration detrimental to United States, States of the

i

United States, Citizens of United States and commerce on affirmative
antitrust determinations; Federal Trade Commission v Intel Corporation
Docket 9341 & EUCC 37.990 v Intel Corp., and on federal and State
i

agent discovery 15 U.S.C. § 1, 2 cognizable § 15 and 18 U.S.C. §§ 241,

*

\

242, 1371, 1512, 1513, 1516, 1519, 1957, 1962c cognizable § 1964c.
III.

At the appellate level can Ninth Circuit Judges deny confrontation on
appeal negating too address an indigent Appellant’s legitimate Motion
to proceed in forma pauperis? And thereby do dismiss said appeal?

V

IV.

Administratively, appellant having revealed to a Ninth Circuit Docket
Clerk his intention to pay $505 District Court filing fee [to expedite the
appeal] can Judges then expedite too Dismiss said Appeal pursuant 28
USC § 1915 (e)(2) while a) filing fee is transiting in the mail and, b) on
judgment Entered the day following District Court Entry of Payment?
2

TABLE OF CONTENTS
Page
TABLE OF PERTINENT AUTHORITIES

5

CONSTITUTION, STATUTES, PROCEDURES

9

NOTICE OF PENDANT MOTION at 9th CIRCUIT

10

JURISDICTION

12

CASE STATEMENT

13

FACTS OF THE CONTROVERSY

17

LAW ARGUMENTS

22

REASON FOR GRANTING THE WRIT

30

CONCLUSION

31

CERTIFICATE OF COMPLIANCE FORM AND WORD COUNT

32

EXHIBITS Petition for (re)HEARING FRAP 40(a)(1)

33

Relief Sought

34

Petitioner Statement that Appeal Should Go Forward

35

Ninth Circuit General Docket Report Appeal 20-15326

61

Ninth Circuit ORDER dismissing Appeal 20-15326

63

Proofs of $505 Appeal filing fee payment and receipt

64

Eastern District of California Minute Order; “renew
request to proceed forma pauperis upon filing appeal”

67

Eastern District of California Case Summary 2:18-cv-00865 KJM DB

68

Eastern District General Docket Report

70

Eastern District Order dismissing case matter

74

Eastern District Magistrate Judge recommendations

76

Appellant Objections to Magistrate Judge recommendations
Certificate of Service

88-128
129
4

TABLE OF AUTHORITIES - CORE CASE PRECEDENT
Page
Ackermann v United States, 340 U.S. 193, 197-202 (1950)

25

Alexander v. Fulton County, 207 F.3d 1303, 1326 (11th Cir. 2000)

31

Batzel, 333 F.3d 1024

28
18, 26

Bivens v Six (Un)known Narcotics Agents, 403 U.S. 388 (1971)
Boyce vAHzaduh, 595 F.2d 948, 951-52 (4th Cir. 1979)

22

Carr Carriers, 745 F.2d at 1106; quoting
Poller v Columbia Broadcasting System, 368 U.S. 464,373 (1962)

15

Concrete Pipe and Products v. Construction Laborers Pension Trust,
508 U.S. 602, 623 (1993)

31

Chambers v. NASCO, Inc., 501 U.S. 32, 46 (1991) quoting
Anderson v. Dunn, 19 U.S. 204, 227 (1821)

25

Cherry St., LLC, v Hennessee Group LLC, 573 F.3d 98
(2nd Cir. N.Y. 2009)

26

Conley v Gibson, 355 U.S. 41, 45 (1957)
Continental Ins. Co. v Pierce County. Wash., 690 F.Supp. 930
(W.D. Wash 1987)
Crawford v Washington, 541 U.S. 36 (2004)

15,17, 20, 22,27
26

16, 19

Davis v Welchler U.S. 22, 24

26

Denton v Hernandez, 505 U.S. 25 (1992)

22

Dixon vPitchford, 843 F.2d 268,270 (7th Circuit 1988)

15, 27

Dowdy v Hawfield, 189 F.2d 637 (D.C. Cir. 1950)

26

Flemming v Huebsch Laundry 159 F.2d 581 (7th Cir. 1947)

26

Franklin v Murphy, 745 F.2d 1221,1227-28 (9th Cir. 1984)

22

FTC v Cement Institute, 333 U.S. 683 (1948)

15
5

TABLE OF AUTHORITIES
Page

i

Giordana v McCartney, 385 F.2d 154 (3rd Cir. 1967)

25

Global-Tech Appliances, Inc,, v SEB S.A., Supreme Court of United States

26

Griffin v Illinois, 351 U.S. 12,18 (1956)

15

Hayden v Rumsey Products, 96 F. Supp 988 (W.D.N.Y. 1951)

26

Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238 (1944)

25

Hilton v Hallmark Cards, 599 F.3d 894 (2010)

28

Int’l Boxing Club, 348 U.S. 236, (1955)

27

Jenkins v McKeithen, 395 U.S. 411, 421 (1969)

22

Kapp v National Football League, 586 F.2d 644, 648-49 (9th Circuit 1978)

27

KehrvA.O. Smith Corp.521 US. 179 (1979)

27

Kush v Ruteledge, 460 U.S. 719,103 S Ct at 1487 (1983)

16

Klapprottv United States, 335 U.S. 601, 69 S.Ct. 384, 93 L.Ed. 266 (1949)

16

Klor’s Inc. v. Broadway-Hale Stores, Iric, 359 U.S. 207 (1959)

27

Lawrence v U.S., 482 a.2d 374, 377 (DC 1984)

16,19

Magouirk, 693 F.2d 948, 951 (9th Cir. 1982)

24

Malcolm vNational Gypsum Co., 995 F.2d 346, 350, 354, (2d. Cir. 1993)

13

Medina v California, 505 U.S. 437, 443 (1992)

13

Monell v Department of Social Services of the City ofNew York,
436 U.S. 658 (1978)

18, 27

Monroe v Pape, 365 U.S. 167, 196 (1961)

27

NAACP v Alabama, 375 U.S. 449

27

Neitzke v Williams, 490 U.S. 325 (1989)

22,23,27

6

TABLE OF AUTHORITIES
Page
Tellis v United States Fidelity & Guarantee Co., 805 F.2d 741, 748
(7th Cir. 1986) '
,

\
;

i

United States v Throckmorton 98 U S. 6i [25 L. Ed .93] quoting
Clark y Clark, California Appellate, 4th District, September 5,1961
Watson v Ault, 525 F.2d 886,891-92 (5th Cir. 1976) ,
Weinberg v Feisel, 110 Cal.App.4th 1122, 2 Cal.Rptr.3d 385, 392 (2003)

27

23,26
22

28,29

West Virginia Oil and Gas Co., v George E. Beece Lubler Co. ,
g213F.2d 702 (5th Cir. 1954)

26

Wilson v Garcia 471 U.S. 261 (1985)

27

Woodall v Foti, 648 F.2d 268, 271 (5th Cir. 1981)

22

Woods v Severson 9, F.R.D. 84 (D. Neb 1948)

26

t

i

8

i

It

¥'

pondering if the reviewing law clerk dismissed the appeal? This would also be
difficult for Appellant, an outsider, thought despised by local BAR, too establish.
However, I cannot excuse Ninth Circuit failing to notice appellant mandate
pending, thinking I would move for (re)H earing, Reconsideration, Alter or Amend
sans Motion to Stay Mandate? Thus to quash this Petition for Writ of Certiorari
too the United States Supreme Court. And of course that Motion to reconsider
would have been denied while time to stay mandate passed. Appellants suspicion
of chicanery, skullduggery inside Ninth Circuit where I have previously advised
Justice Thomas “management problems requiring oversight”, stands clear to me,
Justice review and reinstatement of appeal No. 20-15326 subject 28 U.S.C. §
455(a)(b)(l)(5) (iv) at FRCP 60(b)(6) on deprivation of civil rights under the color
of law 42 U.S.C § 1981 (a)(b), in-State at §1983 subject 42 USC § 1985(1)(2)(3).
The Related Intel Inside price fix matters for two decades, mine and other plain­
tiffs, have never not been any other way, subject to interference including; FRCP
60(d)(3) 18 U.S.C. §§ 2,3,241, 242,371, 1001, 1341, 1503, 1505, 1510, 1511,
1512, 1513, 1516, 1519, 1956, 1958, 1961, 1962c cognizable 1964c, 1831 and
2382 questions, 31 U.S.C. § 3729 theft from federal government, States and
citizens, industry and commerce.
JURISDICTION
As of this Petition for Writ of Certiorari, Ninth Circuit has not responded to
Petitioner’s pendant Motion to re-instate and HEAR 20-15326 pursuant FRAP 59e

12

Chief Judge Muller and Magistrate Judge Barnes issue a minute ORDER
March 13, 2020 stating “Plaintiffs Motion is DENIED without prejudice. Plaintiff
may renew request in circuit court upon filing appeal.”
Appellant hands Motion to Proceed in forma pauperis at Ninth Circuit on
March 16, 2020, waits in mail room probably a week suspect back dated said filed
March 19, 2020.
On April 22, 2020, Ninth Circuit issues an ORDER stating “A review of the
records reflects that the appeal may be frivolous. Court may dismiss a case at any
time, if court determines the case is frivolous, See 28 U.S.C. § 1915(e)(2). Question
arises, 1) what facts reflect the appeal may be frivolous? Facts are unaddressed by
Eastern District and by Ninth Circuit within both case dismissals.
Continuing, “within 35 days after the date of this order, appellant must (1)
dismiss the appeal, or (2) file a statement why the appeal is not frivolous and should
go forward.”
On May 14, 2020 Appellant files at Ninth Circuit “Petitioner Statement that
Appeal Should Go Forward”, and is exactly as it should be, in form and content an
amended complaint that could have been sought by Eastern District. Bruzzone claims
in matter are both cognizable and meritorious. Bruzzone fails to comprehend how his
claims are frivolous non examined, unheard at Eastern District and at Ninth Circuit
subject FRCP 60(b)(l)(3)(6) on Bivens v Six (Un)known Narcotics Agents, 403 U.S.
388 (1971) and Monell v Department ofSocial Services of the City ofNew York, 436
U.S. 658 (1978) given the history in these v Intel Corp. matter’s of Constitution 1st
(association primarily) 5th and 14lh amendment denials; contract, due process, equal
18

protection, searching examination, confrontation denials prejudicing this PlaintiffAppellant who is a federal and states witness in the Intel Corp. antitrust, industry,
corporate and consumer Intel Inside® ‘price fix’ robberies and espionage matters
retained by Congress Constitution 9th, Federal Trade Commission at 15 U.SC. §§ 5,
15 and U.S. Attorney Northern California District and Department of Justice at 31
U.S.C. 3729, 3730(b)(l)(c)(3).
“Confrontation clause is violated when a trial court precludes a meaningful
degree of cross examination (Springer v U.S., 388 A.2d 846, 854, D.C. 1978). The
curtailment of cross examination is rendered more severe when a government witness
is involved; under such circumstances, extensive cross examination ... [is] required
to satisfy the confrontation guarantee {Lawrence v U.S., 482 a.2d 374, 377 DC 1984).
Under the Confrontation Clause “testimonial” out of court statements and other
hearsay is not admissible if the accused did not have the opportunity to cross examine
the accuser or the accuser is unavailable at trial”, Crawford v Washington, 541 U.S.
36, 2004.
Here is where the situation becomes suspect at 28 USC § 455(a)(b)(l)(5)(iv)
subject FRCP 60(b)(l)(3)(6). Statement and Motion sit in excess of 100 days and on
June 29, 2020 this Appellant contacts Docket Clerk for Status, not the receptionist,
the DOCKET CLERK and asks if any decision has been made on Appellant’s motion
pursuant forma pauperis and judicial review Appellants Statement for continuation.
Docket Clerk informs this appellant those answers are no. Appellant informs the
female voice on the phone he will pay the filing fee. She responds “do what ever you
feel is the right decision for your case”. $505 cashiers check is secured June 30th,
19

placed in U.S. priority mail service to Clerk of Court Eastern District, first attempted
deliver July 3, actual delivery and Entry July 7,2020. The filing fee is paid.
Still on the July 2nd dismissal paying the fee is not the issue, “Upon review
of record, and response to court’s April 22, 2020 order, we conclude this appeal is
frivolous”. Again, “how is the appeal frivolous? If appeal is frivolous Judges Graber,
R. Nelson, Vandyke must be able to substantiate in their decision, ‘why frivolous’ but
they have not. So why not? Is it because Appellant’s right to appeal is being denied?
Appellant has stated specific claims, persons, and is capable as a discovery paralegal.
And there is another question. Motion for fee waiver and this Petitioners
statement sits up until the day he informs Docket Clerk he will pay the filing fee and
then miraculously a Ninth Circuit decision is expedited and case is dismissed within
the week on July 2, 2020, lacking any clarification why the appeal is frivolous that is
not the appeal question: “beyond doubt that the plaintiff can prove no sets of facts in
support of his claims for relief’; Conley v Gibson, 355 U.S. 41, 45 (1957) Iqbal
quoting Twombly. Raises questions at FRCP 59(a)(1) subject FRCP 60(b)(l)(3)(6)
and for Ninth Circuit Chief Justice Thomas management oversight on continuing best
practice questions occurring inside Ninth Circuit causes law and justice concern.
Did reviewing appellate law clerk simply write up a dismissal and authorize it?
Write it up and pass it through with no judicial review? In Northern District, I have
observed Judges law clerk’s interfering in the procedures of administrative clerks.
An analysis made by the late Judge Jacob Henry Friendly (1903 - 1986) of
United States Court of Appeals for Second Circuit, 1959 through 1974, including
Chief Judge 1971 through 1973, in his "Some Kind of Hearing," generated a list to
20

the content and relative priority of address Bruzzone has rarely experienced pursuant
conffonation, examination, equal protection;
1. An unbiased tribunal.
2. Notice of the proposed action and the grounds asserted for it.
3. Opportunity to present reasons why proposed action should not be taken.
4. The right to present evidence, including the right to call witnesses.
5. The right to know opposing evidence.
6. The right to cross-examine adverse witnesses.
7. A decision based exclusively on the evidence presented.
8. Opportunity to be represented by counsel4
9. Requirement that the tribunal prepare a record of the evidence presented.
10. Requirement written findings of fact and reasons for decision.
Raises a crucial question; was appeal 15326 expeditiously dismissed at 28
U.S.C. § 1915(a) to prevent Petition, a Writ of Certiorari to the U.S. Supreme Court
skirting around non payment of fees? Associate frauds on corporate placement is an
epidemic across Northern California District pursuant Intel Corp. and the Softbank
ARM Holding pic and ARM Inc. case matters, the Intel Inside® price fix federal and
State and the general consumer recoveries. Opposing network pays off, whether job
placement and or promotion within this corporate political network, or other means.
A fact of Intel network includes shoeing in and maintaining the marginally capable.

4 On interference by defendants falsely portraying Petitioner-Plaintiff “Not a [qui tarn}relator” and
“vexatious litigant of frivolous claims”, creates question promoting legal service market boycott.
Whereas (false) evidence defendants plant into case record does crush the truth.

21

LAW ARGUMENTS
Fourth, Fifth and Ninth Circuits state a frivolous claim is without arguable
substance in law or fact, Franklin v Murphy, 745 F.2d 1221, 1227-28 (9th Cir. 1984);
Woodall v Foti, 648 F.2d 268, 271 (5th Cir. 1981); Boyce v Alizaduh, 595 F.2d 948,
951-52 (4th Cir. 1979); Watson v Ault, 525 F.2d 886, 891-92 (5th Cir. 1976).
Addressing the contention frivolous, “a complaint is legally frivolous when
it lacks an arguable basis in law or fact; “Neitzke v Williams, 490 U.S. 325 (1989).
Rather, Plaintiff and Appellant succinctly detail’s the cognizable nature of his factual
claims on Constitution, statute, case law and federal discovery. On Conley v. Gibson
355 U.S. 41 (1957), “a complaint should not be dismissed ... unless it appears
beyond doubt the plaintiff can prove no set of facts in support of a claim that entitle
him to relief’. All ambiguities or doubts must also be resolved in the plaintiffs favor.
See Jenkins v. McKeithen, 395 U.S. 411, 421 (1969). Complaint cannot be dismissed
“simply because the court finds the plaintiffs allegations unlikely” noting the “age
old insight allegations might be strange but true”, said Supreme Court Justice Sandra
O’Conner in Denton v Hernandez, 505 U.S. 25 (1992) (from Ninth Circuit). In a one
page dissent, “Henderson should be allowed to pursue his case” said Justice Stevens
and Blackman. Bruzzone has made similar claims as Hernandez reporting to Federal
Bureau of Investigation, and Congress, drugged, phasing in and out of sedation, being
interrogated, hit, grabbing his attacker’s arm coming with a syringe, rapped inside his
home, transported; 1997 into 2001, by suspects thought to be corporate and or private
detectives. Previously Bruzzone is suspect framed in corporate secure data theft and
larcenies associated Advanced Micro Devices employment. The “Court can dismiss a
22

complaint as factually frivolous only if the allegations conflict with noticeable facts
and that it was impossible to take judicial notice that none of the alleged rapes [facts]
occurred”, “in forma pauperis complaint is frivolous [under § 1915(d)] where it lacks
an arguable basis either in law or in fact”, Neitzke v Williams, 409 U.S. 319 at 325.
Jurisdiction of court to reform a judgment on the grounds of extrinsic fraud
has never been questioned. “Where the unsuccessful party has been prevented from
exhibiting fully his case, by fraud or deception practiced on him by his opponent(s),
as by [examples cited] these, and similar cases which show that there has never been a
real contest in [any] trial or hearing of any [Bruzzone] case [matter], are reasons for
which a new suit may be sustained to set aside and annul the (former) judgment or
decree, and open the case for a new and fair hearing”; United States v Throckmorton
98 U.S. 61 [25 L. Ed .93] quoting Clark v Clark, California Appellate, 4th District,
September 5, 1961. “In all these cases and many others which have been examined,
relief has been granted, on the ground that, by some fraud practiced directly upon the
party seeking relief against the judgment or decree, that party has been prevented
from presenting all of his case [which is also a nation’s case] to the court” id.
Rule 60, like all the Federal Rules of Civil Procedure, “is to be liberally
construed to effectuate the general purpose of seeing that cases are tried on the
merits”; Rodgers v Watt, 722 F.2d 456,459 (9th Cir. 1983). In determining Rule 60(b)
applicability, courts should be mindful that rules are to be construed to achieve just
determination of every action, Fed.R.Civ.P.l, “to effectuate the general purpose of
seeing cases are tried on merit and to dispense with technical procedural problems”.
Staren v American National Bank & Trust Company of Chicago, 529 F.2d 1257, 1263
23

(7th Cir. 1976); “[S]peaking generally, [the considerable body of federal decisions
has] been in marked harmony with the proposition that 60(b) is a remedial rule to be
liberally construed,” 7J, Moore & J. Lucas, Moore’s Federal Practice 60.22[2] at
247 (2d ed. 1982). In re Magouirk, 693 F.2d 948, 951 (9th Cir. 1982), “Under Rule
60(b), excusable neglect is liberally construed, especially in instances where order or
judgment forecloses a trial on the merits of a claim. See Schwab v Bullock’s Inc., 508
F.2d 353, 355 (9th Cir. 1974) and Patapoffv Vollstedt’s, Inc., 267 F.2d 863, 865 (9th
Cir. 1959).
All circuits have made clear relief is broadly available at Rule 60(b)(6) when
justified by extraordinary circumstances, even if one element of extraordinary circum­
stance is a [long time] ground specified in clauses (b)(1) through (b)(5). Federal Rule
of Civil Procedure 60 provides, in relevant part: (b) Grounds for Relief from Final
Judgment, Order, or Proceeding: On motion and just terms, the court may relieve a
party or its legal representative from final judgment, order, or proceeding for follow­
ing reasons: (1) mistake, inadvertence, surprise, or excusable neglect; (2) newly dis­
covered evidence that, with reasonable diligence, could not have been discovered in
time to move for a new trial under Rule 59(b); (3) fraud (intrinsic or extrinsic),
misrepresentation, or misconduct by opposing party; (4) the judgment is void; (5) the
judgment has been satisfied, released, or discharged; it is based on earlier judgment
that is reversed or vacated; or applying it prospectively is no longer equitable; (6) for
any other reason that justifies relief. ‘“If parties are allowed to manipulate, and other­
wise make a mockery of “the temple of justice” through acts of fraud and unnecessary
delay, the public will lose faith in the court’s ability to settle disputes based on the
24

facts and substantive law.’” Chambers v. NASCO, Inc., 501 U.S. 32, 46 (1991),
quoting Anderson v. Dunn, 19 U.S. 204, 227 (1821). Fraud upon the court is extended
to officers of the court, and when an attorney exerts improper influence on the court
“the integrity of the court and its ability to function impartially is directly impinged”;
R.C. by Ala. Disabilities Advocacy Program, 969 F. Supp. at 691 citing Broyhill
Furniture Industries Inc. v. Craft Master Furniture Corp., 12 F.3d 1080, 1085-86
(Federal Circuit 1993).
On setting aside judgment on misrepresentation of evidence, Hazel-Atlas
Glass Co. v. Hartford-Empire Co., 322 U.S. 238 (1944), “a court may at anytime set
aside a judgment after discovered fraud upon the court... the inherent power of a
court to investigate whether a judgment was obtained by fraud is beyond question”.
“Power to unearth such a fraud is the power to unearth it effectively”, Root Refining
Co., v Universal Oil Products Co., 169 F.2d 514 (3rd Cir 1948). On issues of merit “to
vacate judgments whenever action is appropriate to accomplish justice”; Klapprott v
United States, 335 U.S. 601, 69 S.Ct. 384, 93 L.Ed. 266 (1949) and where the
situation could not be “fairly or logically classified as mere ‘neglect’ on (petitioners)
part.” Bruzzone has never not defended from defendant fraud whatever the institution
of (injustice including Ninth Circuit; subject only to “a reasonable time” Ackermann
v United States, 340 U.S. 193, 197-202 (1950). On newly discovered evidence
Bruzzone is always denied “must be of material nature and so controlling as probably
to induce a different result”, Giordana v McCartney, 385 F.2d 154 (3rd Cir. 1967); and
“whenever action is appropriate to accomplish justice”; Pierre v Bemuth. Lembeke
Company, 20 F.R.D. 1156 (S.D.N.Y)
25

Jurisdiction of a court in an independent suit to reform a judgment on grounds
of extrinsic fraud has never been questioned Throckmorton. “Extrinsic fraud induces
one not to present a case in court, deprives one of the opportunity too be heard or
prevents discovery or obtaining information”; Cornell Law School LII Wex. Pursuant
Marshall, relief from intrinsic fraud has also been granted; “ West Virginia Oil and
Gas Co., v George E. Beece Lubler Co., g213 F.2d 702 (5th Cir. 1954). Distinction
between fraud on the court and fraud relieved by independent action is ambiguous.
See, Moore & Rogers, at 692 n266. Cases under the Amended rule of March 1946
have not distinguished between the two types; E.g., Dowdy v Hawfield, 189 F.2d 637
(D.C. Cir. 1950); Hayden v Rumsey Products, 96 F. Supp 988 (W.D.N.Y. 1951)
(suppression of defense). Relief has been granted where consent order was based on
erroneous representations by law officials; Flemming v Huebsch Laundry 159 F.2d
581 (7th Cir. 1947). Impoverished party attempting too proceed without counsel, filed
an answer that did not comply with the rules; Woods v Severson 9, F.R.D. 84 (D. Neb
1948).
Attempting to free himself from defamation Bruzzone is subject continuous
denial of his 14th amendment guarantee to expose, through discovery and extensive
examination defendant fraud(s) subject 15 U.S.C. § 1, 18 U.S.C. 1962c, 42 U.S.C.
1981 (a)(b), in-state §1983 proximate concert acts 42 U.S.C. § 1985(1)(2)(3) subject
Bivens v Six (Un)known Narcotics Agents, 403 U.S. 388 (1971); Cherry St., LLC, v
Hennessee Group LLC, 573 F.3d 98 (2nd Cir. N.Y. 2009), Continental Ins. Co. v
Pierce County. Wash., 690 F.Supp. 930 (W.D. Wash 1987); Davis v Welchler U.S.
22, 24; Global-Tech Appliances, Inc., v SEB S.A., Supreme Court of United States,
26

Certiorari to U.S. Court of Appeals for Federal Circuit No 10-6; argued February 23,
2011; Int’l Boxing Club, 348 U.S. 236, (1955); Kapp v National Football League, 586
F.2d 644, 648-49 (9th Circuit 1978); KehrvA.O. Smith Corp. 521 U.S. 179 (1979);
Klor’slnc. v. Broadway-Hale Stores, Inc, 359 U.S. 207 (1959); Monell v Department
ofSocial services of the City ofNew York, 436 U.S. 658 (1978); Monroe v Pape, 365
U.S. 167, 196 (1961); Radovich v Nat’l Football League, 352 U.S. 455 (1957),
Sedima S.P.R.L v Inrex Co., 105 S.Ct 3275, 3285 (1985), Stern v United States
Gypsum, 547 F.2d 1329, Stromberg v California, 28 U.S. 359; NAACP v Alabama,
375 U.S. 449; Ostrofe v H.S. Crocker Company, 740 F.2d 739 (9th Circuit 1984);
Spurr v United States, 174 U.S. 728, 735; Tellis v United States Fidelity & Guarantee
Co., 805 F.2d 741, 748 (7th Cir. 1986); Wilson v Garcia 471 U.S. 261 (1985). Denied
relief, “defendants have not established beyond doubt plaintiff can prove no set of
facts in support of [Bruzzone] claim[s] for relief’; Conley v Gibson, 355 U.S. 41, 45
(1957). Nor can defendants prove Bruzzone claims are frivolous; Neitzke v Williams,
Dixon v Pitchford. Let them try to prove “no merit” - send this case to discovery.
In cases involving public figures or matters of public concern, the burden is on
the plaintiff to prove falsity in a defamation action. Nizam-Aldine v City of Oakland,
47 Cal. App. 4th 364 (Cal. Ct. App. 1996). In cases involving matters of purely
private concern, the burden of proving truth is on the defendant. Smith v Maldonado,
72 Cal.App.4th 637, 646 & n.5 (Cal. Ct. App. 1999).
Intel defamatory use of SLAPP in federal court and ARM Inc. defamatory
furtherance in Califiomia State exhibit their concert reliance CCP §§ 391(b), 425.16,
425.17, 425.18 for their purpose of slandering to libel, in these matters, Federal Trade
27

Commission discovery aid Bruzzone who is 42 U.S.C. §1981 (a)(b) Intel Inside®
recovery “lawful” class advocate verse Intel Corp. lawless associates have no ground
[too stand] on Anti-SLAPP, Bruzzone speech is protected enlisted in federal and state
agency; Hilton v Hallmark Cards, 599 F.3d 894 (2010); New.Net Inc. v Lavasoft 355
F.Supp. 2d 1090, 1098 (C.D. Cal. 2004); at Clayton and in California Cartwright Act.
California Anti-SLAPP provides if a motion under statute is granted, pursuant
ARM Inc., and the moving respondent demonstrates that Petitioner Intel brought the
cause of action for purpose of harassment, or delay, too inhibit respondent’s public
participation, to defame, to interfere with respondent movement to exercise protected
constitutional rights, or expose wrongful injure to plaintiff and lawful class, the court
shall award moving party for actual damages; $6.6 B price fix recovery proposed.
California, like other states, discourages “strategic lawsuits against public
participation [where] anti-SLAPP [can] masquerade as ordinary suits but are brought
too deter citizens from exercising their political or legal rights or to punish them for
doing so.” Batzel, 333 F.3d 1024.
California appellate courts have developed multiple tests to determine whether
a defendant’s activity is in connection with a public issue. California Appellate for
First District surveyed appellate cases and divined from three categories of public
issues: (1) statements “concerning] a person or entity in the public eye”; (2) “conduct
that could directly affect a large number of people beyond the direct participants”; (3)
“or a topic of widespread, public interest” Id. at 89. In Weinberg v. Feisel the Third
District articulated a more restrictive test designed to distinguish between issues of
“public, rather than merely private, interest”, 110 Cal.App.4th 1122, 2 Cal.Rptr.3d
28

385, 392 (2003). First, “public interest” does not equate to mere curiosity. Second, a
matter of public interest should be something of concern to a substantial number of
people. Third, there should be closeness between the challenged statements and the
asserted public interest. Fourth, the focus of speaker’s conduct should be in the
public interest rather than a mere effort to gather ammunition for another round of
private controversy. Finally, [a] person cannot turn private information into a matter
of public interest by communicating it to a large number of people; Id. at 392-93.
Two categories of conduct to which anti-SLAPP statute applies are “any
written or oral statement or writing made in a place open to public or public forum in
connection with an issue of public interest ”, and “any other conduct in the furtherance
of the exercise of the constitutional right of a petition, or the constitutional right of
free speech in connection with a public issue or an issue of public interest. ” § 425.16,
subd. (e)
In Weinberg v Feisel, 110 Cal App 4thm 1122, 2 Ca; Rptr, 3d 385 at
California Court of Appeal, (2003) “causes of action arising out of [false] allegations
of criminal conduct, made under circumstances like those alleged in this case, are not
subject to anti-SLAPP. Otherwise, wrongful accusations of criminal conduct, which
are among the most clear and egregious types of defamatory statements, automatically
would be accorded the most stringent protections provided by law, without regard to
circumstances in which they were made - a result that would be inconsistent with the
purpose of the anti-SLAPP and would unduly undermine protection accorded by
paragraph 1 of Civil Code § 46, which includes as slander any false and unprivileged
communication charging a person with a crime, and the California rule that false
29

accusations of crime are libel per se (Civ. Code, § 45a; 5 Witkin, Summary of Cal.
Law (9th ed. 1988) Torts, § 482, p. 566). Where Intel Corporation, ARM SoftBank
and ARM Inc. cannot demonstrate Bruzzone makes criminally wrong accusations
!
<-

therefore vex, misrepresent to unknowing law enforcement, secure FBI and Secret
Service affiliate fixer, detectives, hooligans and informants to SWAT Bruzzone, place
in false or hateful light while Bruzzone is engaged in protected activity, on 1) federal
discovery enlistment, 2) federal investigative contract, 3) on inter-nation, federal and
state discovery, including California Department of Justice investigative assignment
affirming Intel Corp. antitrust violations, 4) on Bruzzone knowledge and witness to
civil racketeering, 5) to criminal racketeering, 6) on witness to his own marking,
targeting, retaliatory defamation, denied confrontation explicitly meant to punish and
make a crime ring’s example, including for not playing ball with Intel Corp. engaged
in cartel sales operations, interstate commerce violation, competitor theft including by
employees, media operatives, business agents some of whom recruit Bruzzone to aid
them in secure data theft; 1991 through 1996. Bruzzone first reports to FBI July 1996.
REASON FOR GRANTING THE WRIT
Northern California District and Ninth Circuit are caught in defendant network
sophistry unable to substantiate, on fact and law, Bruzzone is anything other than a
federal agent and patriot whose 14th amendment guarantee too free himself on the

V

merit of his claims exposing defendant’s concert six year defamatory fraud, and 29
year retaliatory targeting by associate actors including jurists disabling mechanic’s of
justice process furthers harm to Bruzzone professional, financially, in reputation and
makes both nation and industry crime example irregularly “rendered contrary to the
30

CERTIFICATE OF COMPLIANCE FORM AND WORD COUNT
Petitioner declares under penalty of perjury this writ has been formatted
pursuant rule 33.2 in acceptable type face and font. The processing system word
count the body of this declaration sans cover, table of contents and table of
authorities is 6,230 words.
Date: August

,2020

MichaerBruzzOTie, inpro se

32

Michael A. Bruzzone
Representing Self, Campmkting@aol.com
In UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Michael A. Bruzzone

)

Ninth Circuit No. 20-15326

)

)

from ECAD 2:18-cv-0865 KJM DB PS

)
i

Petitioner - Appellant

v.

)
)
)
)
)

Petition for (re)HEARING FRAP 40
MOTION TO ALTER OR AMEND
JUDGMENT PURSUANT FRCP
59(a)(1)(b) subject FRCP 60(b)(l)(3)(6)
and 28 U.S.C. § 455(a)(b)(l)(5)(iv)

)

)
)
Intel Corporation, in concerted action with )
)
ARM Holdings pic and ARM Inc.
)
executives and their attorneys; et al
)
)
)
)
Defendants - Appellee
)

Appellant seeks reinstatement of Appeal
at FRCP 4 on interference to disable the
mechanics of justice process, Dismissal is
not an inadvertent mistake on the history
of Intel Corp. and ARM Inc. related case
matters but the denial of Justice process
on extrinsic fraud, associate network at
18 U.S.C. § 1962c and the extra judicial
chicanery cognizable 18 U.C.C. § 1964c
at Bivens

)

)
Defendants

Appeal is meritorious, “beyond doubt”

)

)
)
)

Originating Eastern District supports
Petitioner right to appeal; filing fee is
paid

)
i

)
)

Judge Graber bias contested Oregon
Judge Nelson bias contested BYU

)

)
)
)

Seeking management oversight from
Chief Justice Thomas in a case matter
said reviewed Judges Graber, R. Nelson,
and Vandyke. Appellant ponders whether
that is true on potential manipulation by
the reviewing Clerk to quash this appeal
advising “frivolous” and generating said
dismissal for Judge’s rubber stamp.

33

RELIEF SOUGHT
Justice Thomas; appellant seeks reinstatement of appeal 20-15326 for panel
hearing and cautions at 28 USC § 455(a)(b)(l)(5)(iv) not just assignment or draw of
Ninth Circuit Judges pursuant review, but of any law Clerk assigned to make a case
recommendation for judicial consideration the merits of this appeal. Appeal is
meritorious, Eastern District has never opposed and supports [all] Plaintiffs right to
appeal; the appeal filing fee is paid.
Filed with Clerk of Ninth Circuit, served July 12, 2020

/s/
Mienaef Bruzzone£rep£@senting self
FBI Original Source of Intel Network RICO in 1996
FTC Invited Field Report Docket 9288; 1998 - 2000
CDOJ and NYDOJ First to Report Intel Section 1 Violation in 1998
CDOJ Lettered to Work Report, Intel Section 15 USC 1 Violation in 2000
SEC Notice INTC Stock Market Rig, Accounts Fraud; 2007 through current
U.S. Attorney Northern California District FCA Relator; 2008 & current
FTC Witness Analysts v Intel Corp. Docket 9341 now consent order monitor
Court of Appeals Federal Circuit Acknowledge 31 USC § 3730 Relator; 2014

34

